No.
In The

(Eourl of il}e '^vdith
Melvin Hodges, Jr.,
Petitioner,
V.

United States of America,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew S. Heilman, hereby certify that I am a member of the Bar of this
Court, and that I have this 16th day of March 2020, caused three copies of the Petition
for a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
NoelJ. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

\\ Matthew S. Heilman

